Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
   CENTRO CARDIOVASCULAR
 DE PUERTO RICO Y DEL CARIBE
FOR THE PERIOD JANUARY 1, 2008,
    THROUGH JUNE 30, 2010


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                              Assistant Inspector General

                                                     September 2012
                                                      A-02-11-01023
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. CMS contracts with Medicare contractors to, among other
things, process and pay claims submitted by hospitals.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and the State Children’s Health Insurance Program Balanced Budget Refinement Act
of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services on a
rate-per-service basis that varies according to the ambulatory payment classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Centro Cardiovascular de Puerto Rico y del Caribe (Cardiovascular) is a 192-bed hospital
located in San Juan, Puerto Rico. Based on CMS’s National Claims History data, Medicare paid
Cardiovascular approximately $27 million for 2,029 inpatient and 7,125 outpatient claims for
services provided to Medicare beneficiaries for the period January 1, 2008, through
June 30, 2010.

Our audit covered $2,763,915 in Medicare payments to Cardiovascular for 41 inpatient and 130
outpatient claims that we judgmentally selected as potentially at risk for billing errors. These
171 claims had dates of service from January 1, 2008, through June 30, 2010.

OBJECTIVE

Our objective was to determine whether Cardiovascular complied with Medicare requirements
for billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

Cardiovascular complied with Medicare requirements for billing inpatient and outpatient services
for 157 of the 171 claims we reviewed. However, Cardiovascular did not fully comply with
Medicare billing requirements for the remaining 14 claims, resulting in overpayments totaling
$72,139 for the period January 1, 2008 through June 30, 2010. Specifically, 3 inpatient claims
had billing errors resulting in overpayments of $33,085, and 11 outpatient claims had billing
errors resulting in overpayments of $39,054. These overpayments occurred primarily because
the Hospital did not have adequate controls to prevent incorrect billing of Medicare claims.

RECOMMENDATIONS

We recommend that Cardiovascular,

         •   refund to the Medicare contractor overpayments of $72,139 and

         •   strengthen controls to ensure full compliance with Medicare requirements.

CARDIOVASCULAR COMMENTS

In written comments on our draft report, Cardiovascular generally agreed with our first
recommendation and described actions that it has taken or planned to take to address our second
recommendation. Cardiovascular’s comments are included in their entirety as the Appendix.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION................................................................................................................1

     BACKGROUND .............................................................................................................1
        Hospital Inpatient Prospective Payment System ....................................................1
        Hospital Outpatient Prospective Payment System. .................................................1
        Hospital Payments at Risk for Incorrect Billing .....................................................2
        Medicare Requirements for Hospital Claims and Payments ..................................2
        Centro Cardiovascular de Puerto Rico y del Caribe ...............................................3

     OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
         Objective .................................................................................................................3
         Scope .......................................................................................................................3
         Methodology ...........................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

     BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ..............................5
         Inpatient Claims Paid in Excess of Charges ...........................................................5
         Inpatient Manufacturer Credits for Replacement of Medical Devices ...................5

     BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ..........................5
         Outpatient Claims With Modifier -59 .....................................................................6
         Outpatient Manufacturer Credits for Replacement of Medical Devices ................6

     RECOMMENDATIONS .................................................................................................7

     CARDIOVASCULAR COMMENTS .............................................................................7

APPENDIX

     CARDIOVASCULAR COMMENTS




                                                                      iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 3 All services and items within an APC group are
comparable clinically and require comparable resources.



1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 to October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC
whichever is applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments included payments for claims billed for:

          •   inpatient same-day discharges and readmissions,

          •   inpatient claims billed with high severity level DRG codes,

          •   inpatient claims paid in excess of charges,

          •   inpatient and outpatient manufacturer credits for replaced medical devices,

          •   outpatient claims billed with modifier -59,

          •   outpatient claims billed during inpatient stays,

          •   outpatient evaluation and management services billed with surgical services, and

          •   outpatient claims paid in excess of charges.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member. In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due to the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish the Medicare
contractor with sufficient information to determine whether payment is due and the amount of
the payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.




                                                   2
Centro Cardiovascular de Puerto Rico y del Caribe

Centro Cardiovascular de Puerto Rico y del Caribe (Cardiovascular) is a 192-bed hospital
located in San Juan, Puerto Rico. Medicare paid Cardiovascular approximately $27 million for
2,029 inpatient and 7,125 outpatient claims for services provided to Medicare beneficiaries for
the period January 1, 2008, through June 30, 2010, based on CMS’s National Claims History
data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Cardiovascular complied with Medicare requirements
for billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,763,915 in Medicare payments to Cardiovascular for 171 claims that we
judgmentally selected as potentially at risk for billing errors. These 171 claims had dates of
service from January 1, 2008, through June 30, 2010, and consisted of 41 inpatient and 130
outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical review to determine whether the services were medically necessary.

We limited our review of Cardiovascular’s internal controls to those applicable to the inpatient
and outpatient areas of review because our objective did not require an understanding of all
internal controls over the submission and processing of claims. Our review enabled us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
CMS’s National Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Cardiovascular for Medicare reimbursement.

We conducted our fieldwork at Cardiovascular in San Juan, Puerto Rico.

Methodology

To accomplish our objective, we:

         •   reviewed applicable Federal laws, regulations, and guidance;

         •   extracted Cardiovascular’s inpatient and outpatient paid claim data from CMS’s
             National Claims History file for the period January 1, 2008, through June 30, 2010;




                                                 3
         •   obtained information on known credits for replacement cardiac medical devices
             from the device manufacturers for the period January 1, 2008, through June 30,
             2010;

         •   used computer matching, data mining, and analysis techniques to identify claims
             potentially at risk for noncompliance with selected Medicare billing requirements;

         •   selected a judgmental sample of 171 claims (41 inpatient and 130 services) for
             detailed review;

         •   reviewed available data from CMS’s Common Working File for selected sampled
             claims to determine whether the claims had been cancelled or adjusted;

         •   reviewed the itemized bills and medical record documentation provided by
             Cardiovascular to support the sampled claims;

         •   requested that Cardiovascular conducts its own review of the sampled claims to
             determine whether the services were billed correctly;

         •   reviewed Cardiovascular’s procedures for assigning HCPCS codes and submitting
             Medicare claims;

         •   discussed the incorrectly billed claims with hospital personnel to determine the
             underlying causes of noncompliance with Medicare requirements;

         •   calculated the correct payments for those claims requiring adjustments; and

         •   discussed the results of our review with Cardiovascular officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Cardiovascular complied with Medicare requirements for billing inpatient and outpatient services
for 157 of the 171 claims we reviewed. However, Cardiovascular did not fully comply with
Medicare billing requirements for the remaining 14 claims, resulting in overpayments totaling
$72,139 for the period January 1, 2008, through June 30, 2010. Specifically, 3 inpatient claims
had billing errors resulting in overpayments totaling $33,085, and 11 outpatient claims had
billing errors resulting in overpayments totaling $39,054. These overpayments occurred
primarily because the Hospital did not have adequate controls to prevent incorrect billing of
Medicare claims.



                                                4
Only risk areas with errors are listed in the findings and recommendations below.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Cardiovascular incorrectly billed Medicare for 3 of the 41 inpatient claims that we reviewed.
These errors resulted in overpayments totaling $33,085.

Inpatient Claims Paid in Excess of Charges

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Additionally, the Manual, chapter
1, section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be
completed accurately.”

For 2 of the 25 sampled claims, Cardiovascular incorrectly billed Medicare Part A for inpatient
stays that should have been billed as outpatient or outpatient with observation services.
Cardiovascular attributed this to human error. As a result, Cardiovascular received
overpayments totaling $11,085.

Inpatient Manufacturer Credits for Replacement of Medical Devices

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider, (2)
the provider receives full credit for the cost of a device, or (3) the provider receives a credit equal
to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8, states that
to bill correctly for a replacement device that was provided with a credit, the hospital must use
the combination of condition code “49” or “50” along with value code “FD.”

For 1 of the 12 sampled claims, Cardiovascular received full credit from the manufacturer for a
replaced medical device but did not adjust its inpatient claim with the proper value and condition
code. This error occurred because Cardiovascular did not have adequate controls to properly
report credits from device manufacturers. As a result, Cardiovascular received an overpayment
of $22,000.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Cardiovascular incorrectly billed Medicare for 11 of the 130 outpatient claims that we reviewed.
These errors resulted in overpayments totaling $39,054.




                                                  5
Outpatient Claims Billed With Modifier -59

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 23, section 20.9.1.1, states:
“The ‘-59’ modifier is used to indicate a distinct procedural service .… This may represent a
different session or patient encounter, different procedure or surgery, different site, or organ
system, separate incision/excision, or separate injury (or area of injury in extensive injuries).”

For 8 of the 119 sampled claims, Cardiovascular incorrectly billed Medicare for HCPCS codes
that did not require modifier -59 (4 errors), or were included in payments for other services billed
on the same claim (4 errors). Cardiovascular stated that these errors occurred primarily because
of human error, including staff misunderstanding of billing requirements for modifier -59. As a
result, Cardiovascular received overpayments totaling $20,039.

Outpatient Manufacturer Credits for Replacement of Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

Billing Requirements for Medical Device Credits

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.

Prudent Buyer Principle

Federal regulations (42 CFR § 413.9) state: “All payments to providers of services must be
based on the reasonable cost of services .…” The CMS Provider Reimbursement Manual
(PRM), part I, section 2102.1, states: “Implicit in the intention that actual costs be paid to the
extent they are reasonable is the expectation that the provider seeks to minimize its costs and that
its actual costs do not exceed what a prudent and cost conscious buyer pays for a given item or
service. If costs are determined to exceed the level that such buyers incur, in the absence of clear
evidence that the higher costs were unavoidable, the excess costs are not reimbursable under the
program.

Section 2103 of the PRM further defines prudent buyer principles and states that Medicare
providers are expected to pursue free replacements or reduced charges under warranties. Section
2103(C)(4) of the PRM provides the following example:




                                                   6
       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits available under the terms of the warranty covering the
       replaced equipment. The credits or payments that could have been obtained must
       be reflected as a reduction of the cost of the equipment.

For 3 of the 9 sampled claims, Cardiovascular did not obtain credits for replaced medical devices
that were available under the terms of the manufacturers’ warranties. This occurred because
Cardiovascular did not have controls to identify, obtain, and report credits from the device
manufacturers. As a result, Cardiovascular received overpayments totaling $19,015.

RECOMMENDATIONS

We recommend that Cardiovascular:

         •   refund to the Medicare contractor overpayments of $72,139 and

         •   strengthen controls to ensure full compliance with Medicare requirements.

CARDIOVASCULAR COMMENTS

In written comments on our draft report, Cardiovascular generally agreed with our first
recommendation and described actions that it has taken or planned to take to address our second
recommendation.

Cardiovascular disagreed with our findings related to manufacturer credits for the replacement of
medical devices. Regarding Cardiovascular’s receipt of a $22,000 credit related to an inpatient
claim for which Cardiovascular did not adjust the claim, Cardiovascular indicated that, once the
device’s manufacturer and our office made the hospital aware of the fact that the device qualified
for a credit, Cardiovascular adjusted the claim and refunded the overpayment. Regarding three
outpatient claims for which Cardiovascular did not obtain manufacturers’ credits for replaced
medical devices, Cardiovascular stated that it has not received a reimbursement check or credit
memo from the associated manufacturer. However, Cardiovascular agreed to refund the
overpayments and initiate procedures to address our findings. Cardiovascular’s comments are
included in their entirety as the Appendix.




                                                7
APPENDIX
                                       APPENDIX: CARDIOVASCULARCOMMENTS                    Page 1 of4

                                                                               Centro Cardiovoscular
                                                                               de Puerto Ricoy delCariba
                                                                               Dr. Ramon M. Suarez Calderon
                                                                               Estado Ubre Asociado de Puerto Rico
                                                                               No lIUTM@ DE TV (OU%CtN
 August 3, 2012

 Report Number: A-02-11-01023

   Mr. James P. Edert
   Regional Inspector General
   Office of Audit Services, Region II                                             P.O. Box
   Jacob K Javits Federal Building
.' 26 Federal Plaza, Room 3900                                                     366528
   New York, NY 10278

 Dear Mr. Edert:                                                                   San Juan,

The Cardiovascular Center of Puerto Rico and the Caribbean
                                                                                   Puerto Rico
acknowledges the receipt, and has reviewed the findings of the U.S.
Department of Health and Human Services; Office of Inspector
General (OIG), draft report entitled Medicare Compliance of Centro                 00936·6528
Cardiovascular dePuerto Ricoy del Caribe for the,PeriodJanuary1,
2008, through June 30, 2010 . .. As requested by your office, the
Cardiovascular Center has reviewed your recommendations and has
included a statement for each occurrence below:
                                                                                   •
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Cardiovascular incorrectly billed Medicare for 3 of the 41 inpatient           1787) 754·8500
claims that we reviewed. These errors resulted in overpayments
totaling $33,085.                                                                  Fox:
INPATIENT CLAIMS PAID IN EXCESS OF CHARGES
                                                                                   1787) 274·0905 .
For .2 of the 25 sampled claims, Cardiovascular incorrectly billed
Medicare Part A for inpatient stays that .shouldhave been bill,ed .as              Website:
outpatient or outpatient with observatidn .serviges . . Carqiovascular
attributed this tofiuman error; Asa result,Cardiovascular.received .
overpayment totaling $11,085.    "                    .                                     IWW W.CllrdlolfOSClllorpr.com
                                                                                                    1
            ,'   .       r'"
                     • •• '. •.• < .




·The   Cardiovascular , Centero{p~ertoRiCo .and       tlie>Caribbeahagrees .
!Vithy()urfindings ~' In order ,to prevenfthist6 h'appenagairl, we have •. '
imPlemented the foIIowind ,actions:              .    '.    '         .   .

    1. 	 Reinforcethecorrect use of the Admission Order to assure the                     Acreditodo por 

         correct documentation and the adequate level of service.                Comisi6n Conjunlo de Acreditaci6n 

    2. 	 Maintain Adequate .daily monitoring of the level of service               de Orgonizaciones de So Iud 

         (inpatient .or ambulatory service with observation) by medical
         record codersand .utilization program .case managers, in order
         to assure the cdrrect billing process:   .
    3. 	 Perform quality audits for unnecessary admissions.


                                                                                       , ....._;;n:· ~   :- Gob.I:'~· odor

                                                                                       ci+~c ali~ci            de n .1
                                                                                       Page 2 of4

                                     21Page


 Inpatient Manufacturer Credits for Replacement of Medical 

 Devices 


  For 1 of the 12 sampled claims, Cardiovascular received full credi~ form the
. manufacturer for a replaced medical device but did not adjust its inpatient claim
  with the proper value and condition code. This error occurred because
  CardiovasCular did not have adequate controls to properly report credits form
  device manufacturers. As a result, Cardiovascular received and overpayment of
  $22,000.

 The Cardiovascular Center of Puerto Rico and the Caribbean disagrees with your
 findings in this case, because during our review of this Case on June 2011 , we
 contacted the device manufacturer and weeks later we received a . letter from
 them. This letter explained that they became aware that the device replaced on
 2009 qualified for warranty credit during an audit from the Office of the Inspector
 General on their organization in a previous date P.9.J. didn't infOrm th~
Cardiovascular Center until July 2011fter we contacted them in relation to this
 case. Invoices and credit memos were received on a letter dated July 27, 2011 ;
from the auditing periOd of 2008-2010 that inCluded this case . A::s we
acknowledge this information. we informed the OrG auditor of this credit' pending
to be credited and asked him how to proceed since we wereinthe ·middle. of the
audit process, but didn'tn9ceive any answer regarding .onhow to proceed. We
decided to resubmit the invoices to. CMS with the corresponding warrantY credit
for the appropriate sum according to CMS reimbursement formula at the referred
period. In addition to this, in order to avoid any delay on warranty credits claims
to device manufacturer and submit proper billinglo CMS, we developed a Rule
and Procedure to address the correct pathways that will be. followed prior to
billing processing order to comply in each case with the proper reporting of
credits from the manufacturers.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Cardiovascular incorrectly billed Medicare for 11 of the 130 outpatient claims that
we reviewed. These errors resulted in overpayments totaling $39,054.

Outpatient Claims Billed With Modifier - 59

For 8 of the 119 sampled claims, Cardiovascular incorrectly billed Medicare for
HCPCS codes that did not require modifier - 59. (4 errors), or were included in
payments for other services billed on the same claim (4 errors): Cardiovascular
stated that these errors occurred primarily because of human error, including
staff misunderstanding of billing reqUirements for modifier - 59. As a result,
CardiovaSCUlar received overpayments totaling $20,039.

The Cardiovascular Center of .Puerto Rico and .the .Caribbean agrees withvour
findings. In .order to prevent this to happen . again, we have developed the
following strategies:                             .                  ..

    ~ 	 The Medical ReCord Departmenthas i~plementedanadvanced training
       program in the use of modifier 59 ·for outpatient coding. ·   .
                                                                                          Page 3 of4

                                         31Page


      :»> 	 The Cardiovascular Center of Puerto Rico and the C~ribbean will
             continue to monitor all of the audited areas and will be updating its
             internal procedures as necessary.
             The Cardiovascular Center of Puerto Rico and the Caribbean willcohduct .
             a special codingandcomQliance education, monitoring and auditing .
     :»> 	 To strengthen controls to ensurefullcornplianc.e..with Medicare
            requirements, we have implemented several measures, including the
            following:
            .1. 	 Modified edits in the billing system for cases with modifier59.
            2. 	 Assign corrected CPT codes in areas where errors occurred.
            3. 	 Most importantly. both the physician and hospital staff should ensure
                  that everyone associated with the coding and billing process
                  understand the implications of regorting modifier 59 inappropriately.



 Outpatient Manufacturer Credits for Replacement of Medical Devices
                                     .                                       .
Federal regulations (42 CFR & 419.45) required a reduction in the outpatient
prospective payment system payment for the replacement of an implanted device
if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider
receives partial credits equal to or greater than percent of the cost of the
replacement device.

 The Cardiovascular Center of Puerto Rico and . the Caribbean agrees with your 

.findings. and has developed a Rule and Procedure . to address the correct 

 pathways to follow prior to billing. in order to comply in each case with the 

 properly report credits from the manufacturers.      .          ..

.Billing Requirements for lV!edical Device Credits

CMS guidance in Transmittal 1103, dated November 3, 2006, and its Medicare
Claims Processing Manual (the Manual) explain how a provider should report no­
cost and reduced-cost devices under the QPPS.For services furnished on or
after January 1, 2007, CMS requires the provider to report the modifier "FS" and
reduced charges on a claim that includes a procedure code forthe insertion ota
replacement device if the provider incurs no cost or receives full credit for the
replaced device. ,

The 'Cardiovascular Center of Puerto ' Rico and the ·Caribbean agrees with your
findings, and has developed . a. Rule and Procedure to address the correct
pathways to follow prior to billing, in order to ' comply in each case with the
properlY report credits from the manufacturers. .

Prudent Buyer Principle

For 3 of the 9 sampled Claims, Cardiovascular did not obtain credits for replaced
medical devices that were available under .the terms of the manufacturers'
                                                                                       Page 4 of4

                                    41Page


warranties. This occurred because. Cardiovascular did not have controls to
identify, obtain, and report .credits form the device manufacturers. As a ·result,
Cardiovascular received overpayments totaling $19,015.

       The Cardiovascular Center of Puerto Rico and the Caribbean disagrees
       with your findings in this .case .. As of Jodav, we do noLhave any
       reimbursement check nor credit memo from the manufacturer on behalf
       of the overpayments totaling $19,015, as you stated above. As an internal
       control measure, the Cardiovascular Center of Puerto Rico and the
       Caribbean has developed a Rule and Procedure to address the correct
       pathways to follow prior to billing, in order to comply in each case with the
       properly reportcredits from the manufacturer.

Although we. disagree .in part, with your findings in this audit; as •. you
recommended we paid the sum of $72,139.00, in two payments: a voluntary
refund check of $10,485.00, issued and delivered to CMS on October 2011, and
the remaining balance of $61,654.00, issued and delivered to CMS once we
acknowledged the receipt of the (OIG) draft report.

We would like to thank you for your support and collaboration during the audit
review. If you have any questions, please feel free to contact me at (787) 754­
8500 ext. 3004,3005.
